         U.S. ENVIRONMENTAL PROTECTION AGENCY
         OFFICE OF INSPECTOR GENERAL


                                        Catalyst for Improving the Environment


Audit Report




       EPA Has Improved Efforts to
       Reduce Unliquidated Obligations in
       Superfund Cooperative Agreements,
       But a Uniform Policy Is Needed

       Report No. 09-P-0241

       September 22, 2009
Report Contributors:             Paul Curtis
                                 Meg Hiatt
                                 Alfred Falciani
                                 Carol Kwok
                                 Kelly Bonnette
                                 Phil Weihrouch
                                 Robert Hairston




Abbreviations

EPA          U.S. Environmental Protection Agency
FY           Fiscal Year
OIG          Office of Inspector General
                       U.S. Environmental Protection Agency                                                 09-P-0241
                                                                                                    September 22, 2009
                       Office of Inspector General


                       At a Glance
                                                                             Catalyst for Improving the Environment


Why We Did This Review            EPA Has Improved Efforts to Reduce Unliquidated
                                  Obligations in Superfund Cooperative Agreements,
The purpose of this audit was
to determine whether the U.S.
                                  But a Uniform Policy Is Needed
Environmental Protection
Agency (EPA) has adequately        What We Found
monitored obligations on
Superfund Cooperative             The regions audited (Regions 3, 5, and 8) have implemented effective procedures
Agreements. Our objectives        to adequately monitor the status of obligations under Superfund Cooperative
were to determine the status of   Agreements. Those procedures should be used by all regions annually to identify
obligations under Superfund       funds available for deobligation. Also, the Agency has reduced the total amount
Cooperative Agreements for        of open obligations under Superfund Cooperative Agreements from December 4,
selected States, and the          2006, to December 2, 2008.
amount of unliquidated
obligations for these States      We identified $331,802 of open obligations in Region 3 that needed to be
that could potentially be         deobligated. During our audit, the Agency deobligated $330,370 of that amount.
deobligated.                      The Agency deobligated $1,432 less than the amount originally identified for one
                                  agreement because of a final drawdown; that agreement is now closed. The
Background                        unliquidated obligations on the remaining agreements for the States reviewed are
                                  necessary for continuing project work. Because the practices for the regions
A Cooperative Agreement is a      reviewed have been effective in monitoring obligations and identifying amounts
legally binding obligating        available for deobligation, we believe an Agency-wide uniform policy to review
document that provides            unliquidated obligations under Superfund Cooperative Agreements would be
funding to a State to carry out   beneficial.
or assist with Superfund
removal and/or remedial            What We Recommended
activities. Timely review and
deobligation of unneeded          We have identified several best practices used by Regions 3, 5 and 8, such as
funds allow these funds to be     (1) requiring that States submit detailed reports on the status of each Superfund
used on other Superfund           site twice a year, (2) requiring that budget officers solicit information from project
priorities.                       officers and other staff twice a year to identify potential funds for deobligations,
                                  and (3) performing a deobligation exercise twice a year for Superfund Cooperative
                                  Agreements. We recommend that EPA’s Director, Office of Grants and
For further information,          Debarment, incorporate these best practices into a uniform policy for reviewing
contact our Office of
Congressional, Public Affairs
                                  unliquidated obligations under Superfund Cooperative Agreements in all regions.
and Management at                 The Agency agreed to develop a uniform policy, and we consider its response
(202) 566-2391.                   acceptable.
To view the full report,
click on the following link:
www.epa.gov/oig/reports/2009/
20090922-09-P-0241.pdf
                       UNITED STATES ENVIRONMENTAL PROTECTION AGENCY
                                    WASHINGTON, D.C. 20460


                                                                                         OFFICE OF
                                                                                    INSPECTOR GENERAL


                                         September 22, 2009

MEMORANDUM

SUBJECT:        EPA Has Improved Efforts to Reduce Unliquidated Obligations in
                Superfund Cooperative Agreements, But a Uniform Policy Is Needed
                Report No. 09-P-0241


FROM:           Paul C. Curtis
                Director, Financial Statement Audits

TO:             Howard Corcoran
                Director
                Office of Grants and Debarment

                Mathy Stanislaus
                Assistant Administrator
                Office of Solid Waste and Emergency Response


This is a report conducted by the Office of Inspector General (OIG) of the U.S. Environmental
Protection Agency (EPA) on unliquidated obligations under Superfund Cooperative Agreements.
This report represents the opinion of the OIG and does not necessarily represent the final EPA
position. Final determination on matters in this report will be made by EPA managers in accordance
with established audit resolution procedures.

The estimated cost of this project – calculated by multiplying the project’s staff days by the
applicable daily full cost billing rates in effect at the time – is $260,513.

Action Required

In accordance with EPA Manual 2750, you are required to provide a written response to this report
within 90 calendar days. You should include a formal corrective action plan for agreed upon actions,
including milestone dates. We have no objection to the further release of this report to the public.
This report will be available at http://www.epa.gov/oig.

If you or your staff have any questions regarding this report, please contact me at (202) 566-2523
or curtis.paul@epa.gov, or Meg Hiatt at (513) 487-2366 or hiatt.margaret@epa.gov.
EPA Has Improved Efforts to Reduce Unliquidated Obligations in                                                                09-P-0241
Superfund Cooperative Agreements, But a Uniform Policy Is Needed



                                       Table of Contents
 Purpose...........................................................................................................................   1

 Background ....................................................................................................................      1

 Noteworthy Achievements ............................................................................................                 2

 Scope and Methodology ...............................................................................................                3

 Results of Review ..........................................................................................................         3

 Recommendation ...........................................................................................................           5

 Agency Response and Office of Inspector General Evaluation ................................                                          5

 Status of Recommendations and Potential Monetary Benefits.................................                                           6



 Appendices
 A Details on Scope and Methodology .......................................................................                           7

 B Distribution ...............................................................................................................       9
                                                                                       09-P-0241


Purpose

The purpose of this audit was to determine whether the U.S. Environmental Protection Agency
(EPA) has adequately monitored obligations on Superfund Cooperative Agreements. Our
objectives were to determine the status of obligations under Superfund Cooperative Agreements
for selected States, and the amount of unliquidated obligations for these States that could
potentially be deobligated.

Background
Superfund response actions may be managed by either EPA or a State. A Cooperative
Agreement is a legally binding obligating document that: provides funding to a State to carry out
or assist with Superfund removal and/or remedial activities, documents State and EPA
responsibilities and cost share requirements, and obtains State assurances. A Cooperative
Agreement is used when the State manages the response action and EPA provides assistance to
the State. Several EPA offices are involved in the administration and financial management of
the Cooperative Agreements:

   •   Grants Management Offices are the Headquarters and regional units principally
       responsible for all business management aspects associated with the review and
       negotiation of applications and the award and administration of funded projects through
       audit resolution and final close-out.

   •   The Office of Grants and Debarment serves as the National Program Manager for
       administrative grants management, and is responsible for assistance regulations, policy,
       and guidance; and for assistance-related training. This Office also evaluates and provides
       feedback on annual programmatic Post-Award Monitoring Plans and required Close-out
       Strategies within 45 days of receipt. The Grants and Interagency Agreements
       Management Division within the Office of Grants and Debarment is the Grants
       Management Office responsible for administrative management from award to close-out
       for all assistance programs administered by EPA Headquarters. The National Policy,
       Training and Compliance Division provides advice and oversight to regional Grants
       Management Offices for regionally-administered assistance programs.

   •   The Las Vegas Finance Center is responsible for cooperative agreement payments and
       financial close-out of these agreements. The Headquarters or regional program office is
       principally responsible for managing the technical/programmatic aspects of a program.

   •   EPA Project Officers are responsible for completing programmatic baseline monitoring
       for all active awards and assigned programmatic advanced monitoring activities. Project
       Officers complete technical close-out of awards and certify that all programmatic terms
       and conditions are met. Project Officers assist and respond to the Grants Management
       Office, Grant Specialist, and Finance Center in requests for assistance in monitoring,
       close-out, and overall grants management. Project Officers are responsible for
       forwarding any administrative or financial reports and requests to the appropriate office
       and maintaining appropriate file documentation.


                                               1
                                                                                        09-P-0241




   •   EPA Grant Specialists are responsible for completing administrative baseline monitoring
       for all active awards and assigned administrative advanced monitoring activities,
       including conducting the review, preparing the report, and resolving findings. The
       Grants Specialists complete administrative close-out of awards. The Grants Specialists
       assist and respond to the Project Officer, program office, and Finance Center in requests
       for assistance in monitoring, close-out and overall grants management. The Grants
       Specialists are responsible for forwarding any technical or financial reports and requests
       to the appropriate office and maintaining appropriate file documentation.

EPA’s Policy on Compliance, Review and Monitoring of Grants and Cooperative Agreements
establishes Agency standards for the oversight, monitoring, and close-out of assistance
agreements. The policy states EPA officials monitor programmatic and administrative
components of the agreements, including determining whether expended and remaining funds
are reasonable.

Noteworthy Achievements

   •   Regions 3, 5, and 8 have implemented procedures to effectively and adequately monitor
       the status of obligations under Superfund Cooperative Agreements and identify amounts
       available for deobligation.

   •   Region 3 program officials perform at least three reviews of the unliquidated obligations.
       They review the unliquidated obligations when: (1) the Office of Solid Waste and
       Emergency Response’s Office of Superfund Remediation and Technology Innovation
       requires them, (2) they receive the annual report from the Grants and Interagency
       Agreements Management Division, and (3) they receive the unliquidated obligations
       report from Office of the Chief Financial Officer. The program office holds quarterly
       meetings with the States and also works with the Office of Solid Waste and Emergency
       Response and the Office of the Chief Financial Officer to identify potential deobligations
       annually. During Fiscal Year (FY) 2009, Region 3 deobligated $1,094,301 under
       Superfund Cooperative Agreements.

   •   Region 5 program officials require States to submit detailed reports on the status of each
       Superfund site twice a year. The Region 5 Budget Coordinator solicits information from
       Project Officers and other personnel to identify potential funds for deobligation. During
       FY 2009, Region 5 deobligated $706,641 under Superfund Cooperative Agreements.

   • Region 8’s Superfund Remedial Branch performs a program support deobligation
       exercise once a year for all open obligations. This review focuses on agreements 3 or
       more years old. The Region obtains information from the Response Program Managers
       to determine what obligations should be deobligated or recertified. The Region also
       performs an outstanding obligation exercise on open obligations for each assistance
       agreement by site twice a year to determine what funds are necessary. During FY 2009,
       Region 8 deobligated $219,249 under Superfund Cooperative Agreements.



                                                2
                                                                                         09-P-0241



   • The Agency has reduced the overall total amount of open obligations under Superfund
       Cooperative Agreements. Based on information from the Grants Information Control
       System, EPA reduced open obligations under Superfund Cooperative Agreements from
       approximately $124 million as of December 4, 2006, to $92 million as of December 2,
       2008.

Scope and Methodology
We conducted the audit in accordance with generally accepted government auditing standards,
issued by the Comptroller General of the United States. Those standards require that we plan
and perform the audit to obtain sufficient, appropriate evidence to provide a reasonable basis of
our findings and conclusions based on our audit objectives. We believe that the evidence
obtained provides a reasonable basis for our conclusions based on our audit objectives.

We selected 13 Superfund Cooperative Agreements with the oldest award dates and largest
amount of unliquidated obligations on agreements with Delaware, Illinois, and Colorado. We
selected those States based on analyzing which States had the largest amount of total
unliquidated obligations and agreements with least activity (funds expended). We excluded New
York and New Jersey because those States had been audited in the last 4 years (see Table 3 for
prior reviews). The sample included Superfund Cooperative Agreements with $24 million in
unliquidated obligations as of February 2, 2009. We interviewed State officials in Delaware,
Illinois, and Colorado and EPA program officials from Superfund divisions in Region 3
(covering Delaware), Region 5 (covering Illinois), and Region 8 (covering Colorado). We also
reviewed project files obtained from EPA program officials and State officials. We performed
the audit from January 28, 2009, to August 12, 2009.

Appendix A contains further details on our scope and methodology.

Results of Review
Overall, we found that Regions 3, 5, and 8 have implemented procedures to effectively and
adequately monitor the status of obligations under Superfund Cooperative Agreements and
identify amounts available for deobligation. Because these regions’ practices have been
effective in monitoring obligations and identifying amounts available for deobligation, we
believe an Agency-wide uniform policy to review unliquidated obligations under Superfund
Cooperative Agreements would be beneficial. Those procedures should be used by all regions
annually to identify funds available for deobligation.

Based on our review of the 13 Superfund Cooperative Agreements in Delaware, Illinois, and
Colorado, we identified $236,802 for Delaware that could be deobligated. EPA deobligated an
additional $95,000 on another three agreements with Delaware that were not part of our sample,
bringing the total that could be deobligated to $331,802. The remaining unliquidated obligations
in the sample for all three States are necessary for continuing project work. Table 1 provides a
summary for the 13 sampled agreements. A discussion of what we found for each State follows
the table.



                                                3
                                                                                       09-P-0241


Table 1: Sampled Superfund Cooperative Agreements
    Superfund                                             Unliquidated          Amounts
   Cooperative                                             Obligation         Identified for
   Agreement                            Obligation       Amount as of         Deobligation
     Number                Location      Amount             02/02/09          as of 02/27/09
 V00343201             Delaware          $246,287            $94,576             $93,802
 0000392101            Delaware            94,726             23,155              10,000
 0000392501            Delaware            94,726             74,592              65,000
 0099325501            Delaware            97,200             48,030              38,000
 0099317001            Delaware            94,625             48,360              30,000
 V96582701             Illinois         2,762,870            635,112                    0
 V96565101             Illinois         4,000,000          2,728,691                    0
 V96548001             Illinois        18,200,000          9,604,422                    0
 V96544301             Illinois           984,745            410,531                    0
 V998610010            Colorado         6,701,329            238,934                    0
 V97810301             Colorado         8,732,248            829,187                    0
 V998608010            Colorado        12,648,010          2,369,353                    0
 V97814001             Colorado         9,906,396          7,071,071                    0
   Total                              $64,563,162        $24,176,014            $236,802
Source: OIG analysis


        Delaware – $331,802 Identified for Deobligation

        We identified $331,802 of open obligations under Superfund Cooperative Agreements
        that could be deobligated. That amount consists of $236,802 from the five Delaware
        Superfund Cooperative Agreements we examined plus $95,000 that Region 3 and the
        Delaware Department of Natural Resources and Environmental Conservation decided to
        deobligate from three other Cooperative Agreements (99367701, V98367501, and
        V98375801) based on our review. The five agreements we examined were awarded
        between 1989 and 1995 and had project end dates in FY 2009. Region 3 and Delaware
        initiated deobligating these funds during our review.

        EPA Order 5700.6, 5.1.3 states: “In programmatic baseline monitoring, areas to be
        reviewed may include: receipt of progress reports, identifying areas of concern cited in
        the progress reports, whether expended and remaining funds are reasonable.” According
        to State officials, the Delaware Department of Natural Resources and Environmental
        Conservation did not review unliquidated obligations under Superfund Cooperative
        Agreements to determine whether dollars could be deobligated. As a result, Region 3
        could not assess the financial status of the agreements, and funds remained obligated on
        the Superfund Cooperative Agreements that could have been deobligated and used for
        other purposes.

        Region 3 notified us on July 15, 2009, that $330,370 of the amount identified for
        deobligation was deobligated. The Agency deobligated $1,432 less for one agreement
        than the amount originally identified because of a final drawdown. That agreement is
        now closed. Region 3’s procedures for monitoring the status of obligations under
        Superfund Cooperative Agreements were effective in identifying amounts to deobligate.


                                                 4
                                                                                          09-P-0241


        Illinois – No Funds Identified for Deobligation

        We did not identify any funds as available for deobligation from the four Illinois
        Superfund Cooperative Agreements examined. The unliquidated obligations for the
        selected agreements are necessary for continuing project work that could occur due to
        unanticipated conditions, such as additional contamination and other issues causing
        delays, based on information provided by Region 5 and the Illinois Environmental
        Protection Agency. Region 5’s procedures for monitoring the status of obligations under
        Superfund Cooperative Agreements were effective in identifying amounts to deobligate.

        Colorado – No Funds Identified for Deobligation

        We did not identify any funds as available for deobligation from the four Colorado
        Superfund Cooperative Agreements examined. The unliquidated obligation amounts are
        necessary for project work based on information obtained from Region 8 and the
        Colorado Department of Public Health and Environment. For two agreements
        (V99860801 and V97814001), the percentage of obligations remaining appeared
        excessive compared with the percentage of project period expired. However, the
        unliquidated obligation amounts appear necessary because of identified spending needs
        for projects, issues causing delays (such as start-up delays and land access), and possible
        project period extensions. Region 8’s procedures for monitoring the status of obligations
        under Superfund Cooperative Agreements were effective in identifying amounts to
        deobligate.

Recommendation
   1.    We have identified several best practices used by Regions 3, 5 and 8, such as
         (1) requiring that States submit detailed reports on the status of each Superfund site
         twice a year, (2) requiring that budget officers solicit information from project officers
         and other staff twice a year to identify potential funds for deobligations, and
         (3) performing a deobligation exercise twice a year for Superfund Cooperative
         Agreements. We recommend that the Director, Office of Grants and Debarment,
         incorporate these best practices into a uniform policy for reviewing unliquidated
         obligations under Superfund Cooperative Agreements in all regions.

Agency Response and Office of Inspector General Evaluation
Region 3 deobligated $330,370 in unliquidated obligations as a result of our review. Regarding
our recommendation to develop a uniform policy, the Agency responded in an e-mail and agreed
to develop a uniform policy, and we consider its response acceptable.




                                                 5
                                                                                                                                       09-P-0241




                                  Status of Recommendations and
                                    Potential Monetary Benefits

                                                                                                                             POTENTIAL MONETARY
                                                     RECOMMENDATIONS                                                          BENEFITS (in $000s)

                                                                                                                 Planned
    Rec.    Page                                                                                                Completion   Claimed    Agreed To
    No.      No.                          Subject                          Status1       Action Official           Date      Amount      Amount

     1        5     We have identified several best practices used by        O         Director, Office of
                    Regions 3, 5 and 8, such as (1) requiring that                   Grants and Debarment
                    States submit detailed reports on the status of each
                    Superfund site twice a year, (2) requiring that
                    budget officers solicit information from project
                    officers and other staff twice a year to identify
                    potential funds for deobligations, and
                    (3) performing a deobligation exercise twice a year
                    for Superfund Cooperative Agreements. We
                    recommend that the Director, Office of Grants and
                    Debarment, incorporate these best practices into a
                    uniform policy for reviewing unliquidated
                    obligations under Superfund Cooperative
                    Agreements in all regions.



     -        -     NOTE: Region 3 deobligated $330,370 in                   C       Assistant Administrator,   7/15/2009     $330.4      $330.4
                    unliquidated obligations as a result of our review.                     Region 3




1    O = recommendation is open with agreed-to corrective actions pending
     C = recommendation is closed with all agreed-to actions completed
     U = recommendation is undecided with resolution efforts in progress




                                                                                 6
                                                                                       09-P-0241


                                                                                  Appendix A

                  Details on Scope and Methodology
We reviewed laws and regulations pertaining to Superfund Cooperative Agreements, such as the
Comprehensive Environmental Response, Compensation, and Liability Act; Office of
Management and Budget Circular A-102, Grants and Cooperative Agreements with State and
Local Governments; and Title 40 Code of Federal Regulations Part 31, Grants Management
Common Rule. We reviewed EPA policies and guidance issued by the Office of the Chief
Financial Officer, such as Resources Management Directive System 2550D, Superfund
Cooperative Agreements and State Contracts; and EPA Order 5700.6, Policy on Compliance
Review and Monitoring.

We obtained a universe from EPA’s Grants Information Control System under Catalog of
Federal Domestic Assistance Numbers 66.802 (Superfund State Site-Specific Cooperative
Agreement) and 66.809 (Superfund State and Indian Tribe Core Program Cooperative
Agreements). The universe consisted of 281 Superfund Cooperative Agreements with a total
award amount of $602,035,343 as of December 2, 2008. We also generated a report from EPA’s
Financial Data Warehouse of open obligations as of December 2, 2008, for Superfund site-
specific Cooperative Agreements, and Superfund State and Indian Tribe core program
Cooperative Agreements. We combined the financial data included in the Financial Data
Warehouse Unliquidated Obligations Inquiry with the award data in the Grants Information
Control System. From that combined data, we removed agreements without open obligations.
The remaining population consisted of 245 agreements totaling $92,425,363 in open obligations.

From the remaining population, we selected agreements from Delaware, Illinois, and Colorado
with the largest unliquidated obligations or least activity as of December 2, 2008. We later
updated the information for the selected states as of February 2, 2009. From the three States, we
selected 13 agreements with the oldest award date and largest amount of open obligations. We
examined 18 percent of open obligations for Delaware, 96 percent for Illinois, and 69 percent for
Colorado from our population. See Table 2 for details.

Table 2: Superfund Cooperative Agreements for States Reviewed
                    Population as of 02/02/09          Agreements Audited as of 02/02/09
                        Award             Open                 Award            Open
     State    No.       Amount         Obligations   No.       Amount        Obligations
 Delaware     13       $7,474,983       $1,585,075     5        $627,564        $288,713
 Illinois       7      28,560,642       13,903,010     4      25,947,615      13,378,756
 Colorado     14       67,804,478       15,237,041     4      37,987,983      10,508,545
 Total        34     $103,840,103      $30,725,126    13     $64,563,162    $24,176,014
Source: OIG analysis

We developed a questionnaire to use in contacting EPA Project Officers and State officials. The
objectives of our questionnaire were to determine the status of obligations under Superfund
Cooperative Agreements and the amounts under the agreements that could potentially be
deobligated and applied to other purposes. We conducted interviews with EPA program officials
from Superfund divisions in Regions 3, 5, and 8. We also interviewed State officials at the


                                                7
                                                                                       09-P-0241


Delaware Department of Natural Resources and Environmental Conservation, Illinois
Environmental Protection Agency, and Colorado Department of Public Health and Environment.
We performed the audit from January 28, 2009, to August 12, 2009.

Prior Reviews

We researched prior EPA OIG and Government Accountability Office reports related to
Superfund Cooperative Agreements. We noted seven pertinent EPA OIG reports, as listed in
Table 3:

Table 3: Prior EPA OIG Reports Related to Superfund Cooperative Agreements
        Report No.                                   Title                                   Date
2004-4-00015                New Mexico Environment Department Costs Claimed          March 31, 2004
                            Under Cooperative Agreement No. V986338-01
2004-4-00016                Idaho Superfund Credit Claim Under EPA Cooperative       June 2, 2004
                            Agreement V990431-01
2006-P-00013                EPA Can Better Manage Superfund Resources                February 28, 2006
2007-2-00003                Information Concerning Superfund Cooperative             October 30, 2006
                            Agreements with New York and New Jersey
2005-4-00099                California Department of Toxics and Substances Control   September 8, 2005
                            Reported Outlays under Cooperative Agreement
                            V99925204
08-2-0099                   Follow-up on Information Concerning Superfund            March 4, 2008
                            Cooperative Agreements with New York and New Jersey
09-1-0026                   Audit of EPA’s Fiscal 2008 and 2007 Consolidated         November 14, 2008
                            Financial Statements
Source: OIG analysis


Internal Control Structure

In planning and performing our audit, we reviewed management controls related to our audit
objectives. We examined EPA’s FY 2008 Federal Managers’ Financial Integrity Act Annual
Assurance Letters issued by the Regional Administrators and Assistant Administrators for the
various EPA program offices to identify any weaknesses pertaining to the unliquidated
obligations under Superfund Cooperative Agreements. In addition, we examined EPA’s Office
of Management and Budget Circular A-123 review of internal controls to identify any
weaknesses related to unliquidated obligations under Superfund Cooperative Agreements. EPA
identified no material weaknesses in its Circular A-123 reviews related to Superfund Cooperative
Agreements. We did not review the internal controls over EPA’s Financial Data Warehouse or
the Grants Information Control System from which we obtained data reports, but relied on the
review conducted during the audit of EPA’s FY 2008 financial statements. That work concluded
that the application controls for these systems could be relied on to produce accurate data.




                                               8
                                                                                  09-P-0241


                                                                             Appendix B

                                    Distribution

Office of the Administrator
Assistant Administrator, Office of Administration and Resources Management
Assistant Administrator, Office of Solid Waste and Emergency Response
Acting Regional Administrator, Region 3
Acting Regional Administrator, Region 5
Acting Regional Administrator, Region 8
Chief Financial Officer
Principal Deputy Assistant Administrator, Office of Administration and Resources Management
Director, Office of Grants and Debarment
Deputy Director, Office of Grants and Debarment
Director, Office of Superfund Remediation and Technology Innovation
Chief, Contracts Management Branch, Office of Superfund Remediation and
    Technology Innovation
General Counsel
Agency Follow-up Official (the CFO)
Agency Follow-up Coordinator
Associate Administrator for Congressional and Intergovernmental Relations
Associate Administrator for Public Affairs
Audit Follow-up Coordinator, Office of Administration and Resources Management
Audit Follow-up Coordinator, Office of the Chief Financial Officer
Audit Follow-up Coordinator, Office of Solid Waste and Emergency Response
Audit Follow-up Coordinator, Office of Grants and Debarment
Audit Follow-up Coordinator, Region 3
Audit Follow-up Coordinator, Region 5
Audit Follow-up Coordinator, Region 8
Acting Inspector General




                                             9
